1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5000
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543

April 22, 2021

Re: Yellen v. Confederated Tribes et al., Nos. 20-543 & 20-544
Dear Mr. Harris:
A subset of respondents has lodged an extraordinary post-argument letter without citing
anything in the Court’s rules that would allow a party to extend the argument after the case has
been submitted. The letter never actually disavows the Utes’ counsel’s remarkable claim that the
federal government lacks a trust responsibility to Alaska Natives not enrolled in an FRT, and it
goes beyond simply clarifying that oral-argument response to launch a (flawed) multi-part
argument concerning issues fully addressed in the briefs and at oral argument.
To the extent the Court is inclined to consider post-argument submissions, several errors
in the letter merit correction. First, while many services are provided to Alaska Natives by intertribal organizations, they are inter-tribal in the ISDEAA sense of “tribe,” and depend on
authorizations from ANCs (a.k.a., ISDEAA “tribes”), particularly in areas where there are Alaska
Natives but no FRTs to provide the authorization required by ISDEAA. See 25 U.S.C. §5304(l).
That reality is not limited to some 60,000 Alaska Natives in Anchorage and the Matanuska-Susitna
Borough, but exists in Fairbanks, Seward, and Valdez, see Dist.Ct.Dkt.45-5. Second, CIRI’s
eligibility to provide critical ISDEAA services does not come from Section 325, the “distinct
statut[e]” to which respondents’ letter adverts. As CIRI’s amicus brief details, CIRI engaged in
ISDEAA contracting and compacting before Section 325 was enacted and, as the ISDEAA tribe
for the greater Anchorage area, is the State’s second largest ISDEAA provider, furnishing a wide
range of vital social services beyond healthcare. ANCs also play a critical role in other programs
like NAHASDA, and all are ISDEAA tribes, as Section 325 itself confirms. Finally, not only do
numerous federal statutes, starting with ANCSA, authorize ANCs to receive special-federal Indian
benefits, but Alaska Natives were eligible for those benefits long before ANCSA and without
regard to tribal enrollment. See Morton v. Ruiz, 415 U.S. 199, 204-05 & n.6 (1974); see also 25
U.S.C. §5321(a)(1). ANCSA then directed every Alaska Native to enroll in an ANC, but not an
FRT. That congressional decision, with no analog in the Lower 48, is why all the Alaska-based
amici have emphasized the vital role ANCs play and the grave threat posed by the decision below.

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

San Francisco

Shanghai

Mr. Harris
April 22, 2021
Page 2

Sincerely,

Paul D. Clement
cc:

All counsel of record (via ECF)

2

